HHS/OIG, Audit -"Graduate Medical Education for Dental Residents Claimed by the
University of Louisville Hospital for Fiscal Years 2000 Through 2002,"(A-04-04-06005)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate Medical Education for Dental Residents Claimed by the University of Louisville
Hospital for Fiscal Years 2000 Through 2002," (A-04-04-06005)
February 8, 2006
Complete
Text of Report is available in PDF format (571 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether University of Louisville Hospital included the appropriate
number of dental residents in its full-time equivalent (FTE) counts when computing Medicare
graduate medical education (GME) payments for fiscal years (FYs) 2000 through 2002.  Although
the Hospital appropriately included dental residents in its FTE counts used to compute FYs
2000 and 2001 GME payments, in FY 2002 the Hospital inappropriately included a dental resident
who was a graduate of a foreign dental school.  As a result, the Hospital overstated
its direct and indirect GME claims by $15,759 for FY 2002.  The Hospital also included
didactic, i.e., classroom, time for the residents when working in nonhospital settings.
We recommended that the Hospital:  (1) file an amended cost report to refund $15,759,
(2) establish and follow procedures for foreign dental school graduates, (3) determine whether
similar errors occurred after FY 2002 and refund any overpayments, and (4) work with CMS
to resolve the $139,704 related to FYs 2000 through 2002 FTEs for the didactic time of residents
assigned to nonhospital settings.  The Hospital concurred with our first, third, and
fourth recommendations.